<html>
<title> - PROTECTING NORTH KOREAN REFUGEES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                    PROTECTING NORTH KOREAN REFUGEES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2017

                               __________

                           Serial No. 115-98

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        
     
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                             _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-811 PDF               WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            
                       
                       
                       
                       

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Hyeona Ji, North Korean defector, co-chairperson, Worldwide 
  Coalition to Stop Genocide in North Korea......................     5
Ms. Han Ga Hee (alias), North Korean defector, announcer and 
  sound engineer, Free North Korea Radio.........................    14
The Honorable Robert King, senior adviser, Korea chair, Center 
  for Strategic and International Studies (former U.S. Special 
  Envoy for North Korean Human Rights Issues)....................    28
Mr. Greg Scarlatoiu, executive director, The Committee for Human 
  Rights in North Korea..........................................    34
Ms. Suzanne Scholte, president, Defense Forum Foundation, 
  chairwoman, North Korea Freedom Coalition......................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Hyeona Ji: Prepared statement................................    10
Ms. Han Ga Hee (alias): Prepared statement.......................    18
The Honorable Robert King: Prepared statement....................    31
Mr. Greg Scarlatoiu: Prepared statement..........................    36
Ms. Suzanne Scholte: Prepared statement..........................    47

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Karen Bass, a Representative in Congress from the 
  State of California: Material submitted for the record.........    68


                    PROTECTING NORTH KOREAN REFUGEES

                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everybody.
    At a recent House Foreign Affairs Committee hearing, North 
Korea defector Ambassador Thae Yong-Ho testified about the 
strategic value of both disseminating information into North 
Korea and the protection of North Korean refugees in China.
    Drawing on an analogy about the fall of the Berlin Wall, 
Ambassador Thae claimed that there may be a similar result if 
China stopped repatriations of refugees in the United States 
and the international community, expanded soft power news and 
information flows into North Korea.
    He was very dramatic in his testimony and couldn't be 
clearer just how much of a game changer it would be if the 
refugees could find a place of refuge in China, and then on to 
other places like South Korea and other places where freedom 
flourishes.
    This hearing will explore the current situation facing 
North Korean asylum seekers and assess both the Chinese legal 
obligation to protect refugees and the effectiveness of global 
efforts to stop what the U.N. Commission on Inquiry on Human 
Rights in North Korea called crimes against humanity 
experienced by refugees.
    As the Congress continues to look at ways to best apply 
maximum diplomatic and financial pressure on the regime of Kim 
Jong-un, this hearing will explore the strategic relevance of 
further pressing the Chinese Government to protect North Korean 
refugees and evaluate the impact of surging outside information 
into North Korea will have.
    Amid escalating tensions on the Korean Peninsula, we cannot 
forget those suffering under the North Korean regime and those 
North Korean refugees who are in China.
    North Korean asylum seekers are in imminent risk of 
repatriation, torture, sexual violence, forced abortions, hard 
labor, and even execution.
    China's repatriations of the North Koreans is a stark 
violation of both the spirit and the letter of the Refugee 
Convention and the 1967 protocol to which China has acceded.
    The Chinese Government has a lot to answer for. It is no 
wonder that the U.N. Commission on Inquiry for North Korea 
Human Rights concluded that the Government of the People's 
Republic of China is aiding and abetting in crimes against 
humanity by forcefully repatriating North Korean refugees.
    I would note that as many as 90 percent of North Korean 
women refugees in China today fall prey to traffickers who will 
sell the refugees into sexual slavery or forced marriages.
    Suzanne Scholte, who will testify during this hearing, 
previously brought women who were refugees from North Korea--
Mrs. Ma and others--who for the first time told the story about 
how they were exploited inside of China and forced into sex 
trafficking.
    It was just horrific testimony, but an eye opener about how 
they went from an exploitation in North Korea into exploitation 
into China.
    Labor trafficking is also pervasive. The Government of 
North Korea and the government and businesses in China, Russia, 
and elsewhere in the world profit from the trafficking of North 
Korean laborers.
    In recent months, Chinese authorities reportedly deported 
hundreds of South Korean missionaries and NGO workers who have 
provided crucial help to the North Korean refugees in China.
    The people providing that assistance have been ousted as 
well. The international community, especially the United 
Nations, Trump administration, and the U.S. Congress must 
insist that China honor its treaty obligations and end its 
egregious practice of systematic repatriation of North Korean 
refugees.
    I would note parenthetically I have raised this repeatedly 
with now the Secretary General and the former head of the UNHCR 
and never got a good answer. So the U.N. really needs to step 
up to the plate here.
    Chinese officials and businesses complicit in repatriation 
of North Korean refugees or those who profit from labor 
trafficking should also be held accountable.
    The Congress has given the administration the sanction 
tools that, if used, would send the right message and 
especially hold people to account. Whether it be through the 
North Korean Sanctions Enforcement Act, the Global Magnitsky 
Act, or those sanctions attached to China's Tier 3 designation 
for trafficking in persons.
    All should be used strategically and swiftly to send a 
clear message. For too long the world has tolerated China's 
failures to protect refugees, and those complicit in 
repatriations of refugees who profit from the trafficking of 
North Koreans should be held accountable.
    The annual repatriation should be a bellwether for judging 
China's willingness to curtail Kim Jong-un's nuclear ambitions. 
In addition to the protection of North Korean refugees, this 
hearing will also assess global efforts to surge news and 
information into North Korea.
    Expansion of existing efforts to disseminate information 
into North Korea is especially important, if for nothing else 
than to tarnish and undermine the Kim family cult of 
personality where they are lifted up as gods.
    The Kim family cult must be taken seriously as a national 
security threat and a barometer of Kim Jong-un's power. The 
cult of personality, sometimes called Juche, has inspired 
devotion from the North Korean people because of the cradle to 
grave propaganda that they endure.
    We must undermine the Kim family cult and the big lies upon 
which it is based and the propaganda that grants Kim Jong-un 
almost godlike status.
    This status has allowed three generations of the Kim family 
to starve and abuse the North Korean people and divert scarce 
resources to the military and to their nuclear programs.
    We must have an information surge into North Korea. Human 
rights groups are smuggling DVDs and USB sticks with video 
about the Kim family's sins into North Korea right now.
    Balloons are launched across the border with promises of a 
better life in South Korea. Radio programs broadcast daily 
messages and news urging North Korea's elite to defect and turn 
against Kim Jong-un.
    We know some of these efforts are having an effect. We saw 
several high-level defections of diplomats, military officers, 
and the families of North Korea's elites in the last year 
alone.
    The number of asylum seekers depressed for several years by 
upgraded security efforts in China have begun to rise. Efforts 
to get information into North Korea must be expanded 
dramatically and Washington should be leading this effort, 
working primarily with North Korean defector groups in South 
Korea and other human rights organizations.
    The North Korean defector groups should be front and center 
in this effort. They know North Korea and they know the minds 
of the people. They know what information is needed to 
permanently tarnish the Kim family cult and what will motivate 
military leaders to defect.
    Today's hearing takes place among growing tensions on the 
Korean Peninsula. We must seek all available options to deal 
with and resolve the issues at hand.
    I now yield to my good friend and colleague, Ms. Bass, for 
any comments she might have.
    Ms. Bass. As always, thank you, Mr. Chair, for your 
leadership on this issue and so many other issues, particularly 
involving human rights.
    We know that this is an important hearing on the plight of 
refugees fleeing North Korea and the leadership role that we 
can play in protecting their human rights.
    I also want to thank our witnesses for being here today and 
I look forward to your insight. I would especially like to 
thank them for their courage and their resolve to testify.
    We know that North Korea is home to one of the most 
repressive governments in the world. The U.N. Commission on 
Inquiry on Human Rights has called for an investigation into 
violations that may amount to crimes against humanity, and it 
is common knowledge that the quality of life for everyday North 
Koreans is deplorable. They face widespread malnutrition, acute 
food shortages, and extreme poverty.
    When it comes to these human rights abuses, Democrats and 
Republicans agree that the atrocities taking place in North 
Korea must be stopped.
    We must continue to pursue bipartisan policies that promote 
human rights and work with the U.N. and our international 
partners to hold North Korea accountable.
    While our military options in North Korea area limited, we 
can still advance human rights and respect the aspirations of 
the people there.
    One way to do so is through information. North Koreans have 
limited knowledge of the outside world but increasing their 
access to information can help create an informed populace 
which will in turn benefit them as well as the international 
community.
    I would like to point out that although the number of North 
Koreans seeking asylum in the U.S. is low, it behooves us to 
welcome and support those refugees who do reach us, given how 
much they have already suffered.
    The people attempting to escape North Korea face 
insurmountable odds, mostly to China where they are likely to 
be repatriated to North Korean officials and forced in the 
labor camps.
    Given the human rights crisis in East Asia, we need to act 
decisively. This is why I am deeply troubled that despite the 
egregious reports concerning North Korea and the national 
security threat it poses, the administration has still not 
appointed a U.S. Ambassador to South Korea.
    It is critical that we have American diplomats on the 
ground. I also continue to be deeply troubled and critical of 
the administration and in particular President Trump's juvenile 
and unprofessional verbal attacks on the North Korean 
leadership.
    Like the chair said, the regime--the cult has to be taken 
seriously and my concern is that these attacks, especially the 
nature of them--calling the North Korean leader names--these 
attacks diminish our ability to bring about change and, in my 
opinion, only reinforce the regime's propaganda that the U.S. 
is waiting to attack.
    With that, Mr. Chair, I yield my time.
    Mr. Smith. Thank you very much, Ms. Bass.
    I would like to now turn to Dan Donovan.
    Mr. Donovan. Mr. Chairman, I'll yield my time so as to 
allow the witnesses more time to testify.
    Thank you very much.
    Mr. Smith. Thank you very much, I'd say, to my friend.
    Let me begin by welcoming our first panel. We have two 
panels today. Ms. Hyeona Ji, who is a North Korean defector, 
human rights activist, and writer. Her entire family decided to 
escape North Korea in 1998. Ms. Ji was soon arrested and 
repatriated to North Korea during the first repatriation in 
February 1998 and was harshly interrogated and beaten, and 
witnessed other repatriated North Koreans, including adults, 
children, pregnant women, undergo beatings and invasive 
searches for hidden money.
    Ms. Ji escaped North Korea again in April 1998, leaving 
behind her younger brother, to search for her mother and sister 
in China. She was caught by sex traffickers and sold for 
$25,000 Chinese yuan.
    In April 1999, she was arrested by Chinese authorities 
again and forced to be repatriated again for the second time.
    In November 2000, she escaped North Korea for the third 
time. In 2002 she was arrested and forcibly repatriated to 
North Korea again. This time, while 3 months pregnant upon her 
arrival in North Korea, she underwent a forced abortion without 
anesthetics, almost dying from blood loss at the hands of North 
Korean authorities.
    Ms. Ji was about to be sentenced without a fair trial. But 
thanks to a compassionate security officer, she was able to 
avoid further incarceration and in October of that same year 
escaped North Korea again.
    Since her arrival in South Korea in 2007, Ms. Ji has been 
very active as a human rights activist in South Korea and 
abroad, telling the world of her experience, of multiple 
escapes and forced repatriation. She is currently co-
chairperson of the Worldwide Coalition to Stop Genocide in 
North Korea. We welcome her and are honored to have her testify 
today.
    Our second witness will be Ms. Han Ga Hee, who was born in 
1980 in North Korea. She studied at an ag college and worked as 
a laborer at a collective farm.
    While in North Korea, she listened to the radio broadcast 
of Free North Korea Radio. The difficult conditions in North 
Korea and her curiosity led her to cross the border to go to 
China in 2002.
    She worked various jobs in China but was always in constant 
danger of repatriation to North Korea. After 6 years in China, 
she saved up enough money to hire a broker to get her to South 
Korea.
    After she paid him the money, the broker dropped her off at 
the border of Mongolia and handed her a compass and told her to 
head north across the grassland and the Gobi Desert.
    Alone, she walked for several days without knowing where to 
go and finally was found by Mongolian police. Once she reached 
South Korea in '08, she went to visit the Free North Korea 
radio station and learned the truth.
    All the people working there were defectors who fled North 
Korea. She has been working ever since for Free North Korea 
Radio--that's 8 years now--and has become a news announcer and 
is a producer of a gospel program.
    We welcome her and are honored to have her testify as well.

     STATEMENT OF MS. HYEONA JI, NORTH KOREAN DEFECTOR, CO-
  CHAIRPERSON, WORLDWIDE COALITION TO STOP GENOCIDE IN NORTH 
                             KOREA

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Ji. Hello, my name is Hyeona Ji and I would like to 
express my appreciation to Members of Congress for your 
interest and concern for North Korean human rights.
    In North Korea, the fact that 3 million people starved to 
death didn't seem out of the ordinary. The determination to 
escape from a country that denies its people freedom and human 
rights was stronger than the will to survive.
    So I decided to leave North Korea, my close friends, 
neighbors, and my lovely hometown, and I left my fate up to the 
Tumen River at the border between China and North Korea.
    In 1963, 3 years before the height of China's Cultural 
Revolution, my ethnic Korean-Chinese father, at the young age 
of 16, crossed the border into North Korea to find freedom.
    In December 1997, he heard radio programs aired on the 
Korean Broadcasting System--KBS--while visiting family in 
China. Realizing that he had been duped his entire life, he 
came back to North Korea and persuaded the rest of us to leave 
North Korea.
    So in February 1998, my father crossed the border in search 
of freedom again into China and by way of going upstream in the 
Tumen River, and with my mother and my two younger siblings we 
escaped via a lower part of the river downstream.
    We were supposed to meet him at a predetermined location in 
China. But he was soon arrested--that's what we determined--and 
we have not known of his whereabouts for the last 19 years and 
my mother and two siblings and I were also immediately arrested 
and repatriated.
    Afterward, I witnessed my mother being kicked with hard 
shoes for defecting and we were forced to sit down and stand up 
nearly 100 times doing the squatting motion in the process of 
being inspected for any illegal contraband, especially money, 
and we were subject to very severe thought criticism at the 
numerous agencies of the North Korean Government.
    And, of course, our neighbors and friends gave us the cold 
shoulder. I was taken to and tortured at the Ministry of State 
Security for keeping a small Korean language Bible given to me 
from my mother, because in North Korea they don't allow freedom 
of religion.
    I was released only after lying that I found it on the 
ground after severe beating and torture, and my mother and 
younger sister went to China and were supposed to return in a 
couple days. But they were kidnapped and sold.
    And they went to China in search of food to bring back to 
the family but they were arrested and sold into this human 
trafficking situation. And my youngest sister, who was only 17 
at the time, was sold and forced to marry an ethnic Chinese man 
who was over 40 years old.
    I myself was also trafficked and so my brother lost all of 
us when he was only 10 years old when he was left back in North 
Korea. When I was repatriated a year later, that was when I 
began to witness the worst of North Korea's human rights 
atrocities.
    At the Jeungsan Detention Facility, pregnant women were 
forced to do hard labor all day long. Because North Korea does 
not allow for mixed ethnicities, they made repatriated women 
who became pregnant in China to miscarry by forcing them to do 
hard labor.
    At night we heard pregnant mothers screaming and babies 
dying without being able to see their mothers. I was reunited 
with my mother, whom I had not seen for a year, when I was sent 
to the provincial police jail because she herself was also 
repatriated, and because of the abuse and torture that I 
received at this facility, my bones and my rib were not healed 
properly and as a result I still suffer from that beating.
    I was soon separated from my mother and then sent to the 
Jeungsan Re-education Camp Facility Number 11. This is the 
place where people that went in did not come out alive.
    This is the place where people were forced to do hard labor 
and because of lack of food given to the inmates they were 
forced to eat locusts or skin live frogs and reptiles and rats 
and eat that to make up for the deficient food that was given 
to them, and many inmates died from malnutrition and from 
suffering from diarrhea.
    Almost everyone who died was buried at a place that we 
inmates called Flower Hill. But everyone knew that the dead 
bodies ended up being food for the dogs belonging to the guard 
that kept watch over the burial site and these dogs belonged to 
the guard that was placed there to watch over the dead bodies.
    At the Jeungsan Re-education Prison Camp Number 11, I was 
beaten with a wooden bar and kicked for not obeying commands on 
time and as a result of this beating and other mistreatment, 
not only did I suffer broken ribs that didn't heal properly, 
but to this day I suffer from chronic illnesses like epilepsy 
and fibromyalgia.
    I was given a 1-year sentence but was pardoned after 8 
months on Kim Jong-il's birthday on February 16th, 2000, and I 
escaped again, knowing that I had to tell the world about North 
Korea's human rights realities.
    However, I was arrested and repatriated in China again for 
the third time and sent back to North Korea, this time 3 months 
pregnant, and I was forced to undergo an abortion without any 
medication at the police station in North Korea.
    So my first child passed away without ever seeing the world 
and without any time for me to even say sorry to my child. Even 
though I was haemorrhaging to death, they were filling out 
papers to send me to the Hamheung Re-education Prison Camp 
without even a fair trial.
    Thankfully, there was an officer on my case who took pity 
on me and let me be released from the prison due to my 
condition. Even though I was in terrible health, I crossed the 
Tumen River yet again to go into China.
    I had to do this because I vowed to myself and I made a 
promise to the people that I saw at Jeungsan Prison Camp that I 
would survive and live the life that they never got to live.
    And I made this vow crossing into China because I wanted to 
tell the world what the experience and to tell the people that 
I would survive and live the life that they, prisoners in 
Jeungsan, never got to live.
    Between my first escape from North Korea in February 1998 
and 2007, I was repatriated three times and escaped North Korea 
a total of four times.
    I spent 8 months in a re-education center and some time in 
China, which was a foreign place to me, before finally reaching 
South Korea in 2007.
    As soon as I arrived, I arranged for my mother and her 
daughter to come to Korea via Myanmar. But I had no news about 
my two younger siblings and father.
    And then one day my brother arrived in South Korea and my 
brother had been on the street for--alone for 13 years and we 
could not do anything but hold him, embrace him and cry.
    And the following year in 2011, my little sister, who was 
only 17 when I last saw her, made it to South Korea via 
Thailand at the age of 31. So we were reunited after 14 years 
of separation and we wept with joy and we vowed that we will 
never be separated again.
    Right this moment, I miss my father terribly and this 
longing is not unique just for myself. It is a longing of all 
North Korean defectors. The recent case of the running of the 
defector soldier across the joint security area represents a 
dash toward freedom. That is the dream of 25 million North 
Korean people.
    North Korea is one terrifying prison and the Kim regime is 
carrying out crimes against humanity in North Korea, and it is 
only a miracle that people and I, myself, survived the hellish 
experience of the prison camp.
    However, the Chinese Government continues to send North 
Koreans seeking freedom back to this prison. On November 4th of 
this year, a mother and her child were detained on their way to 
meet their father in South Korea--in China.
    The excitement of meeting his father was momentary because 
the Chinese Government sent them back on a deadly path back to 
North Korea.
    China, which has lived through a so-called ``Cultural 
Revolution,'' is well aware of what happens to repatriated 
defectors and how they will be treated. Yet, it continues to 
send North Koreans back.
    How is this different from murder? I strongly urge the 
Chinese Government to discontinue and stop the forcible 
repatriation of North Korean refugees.
    Much like the Apostle Paul, who says in the Gospel that he 
is indebted for the Gospel, I confess to my father and to those 
who have died in prison after repatriation and to all North 
Koreans that I am in debt for my freedom.
    And so yesterday I asked the U.N. officials and today I ask 
Members of Congress and other people gathered throughout the 
world to fight for the freedom and human rights of North 
Koreans and repatriated defectors who do not even have the 
right to know or the right to own anything and who have no 
freedom at all in North Korea.
    I will now read a poem that I wrote for a book of poetry 
that I wrote in memory of the prisoners that dies in the prison 
camp, and it is titled, ``Is Anyone There?''
    I am afraid. Is anyone out there?
    This is hell. Is anyone out there?
    Despite my urgent pleas, no one is opening the door for me.
    Is anyone there?
    Please hear our cries.
    Hear the pain of us getting stepped on.
    Is anyone there?
    Is anyone there?
    People are dying. My friend is dying also.
    I am calling and calling. Why is there no answer?
    Is there really no one there?
    There's a poet--Dutch poet by the name of Job Degenaar and 
he said, ``The doors to prison must be opened from the 
outside.''
    And so I appeal to you, to the United States, to South 
Korea, to all of us here to find many ways we can open the 
doors to North Korea.
    And when you meet people from North Korea once it becomes a 
free country and the people of North Korea ask you, what have 
you done as earlier beneficiaries of freedom that we do not 
have, all of us will have a good answer in reply to those North 
Koreans.
    Thank you.
    [The prepared statement of Ms. Ji follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Ms. Ji, thank you very much for that very moving 
and inspiring testimony and also your challenge to each of us 
to do more.
    There are all of us out there but there needs to be more of 
us and we need to raise our voices even more effectively and 
louder as we go forward. So thank you for that call.
    Ms. Hee.

  STATEMENT OF MS. HAN GA HEE (ALIAS), NORTH KOREAN DEFECTOR, 
      ANNOUNCER AND SOUND ENGINEER, FREE NORTH KOREA RADIO

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Hee. Hello. Thank you very much for this opportunity to 
be a witness in this hearing.
    My name is Han Ga Hee. I escaped from North Korea into 
China and in China I was human trafficked, and while being 
trafficked I was given a Bible and the Bible became my light, 
and eventually I found my way to South Korea and I am here 
before you.
    I am still living the fears that I had back in China. I had 
a knife put to my neck and the choice was either that I get 
married to a Chinese man living in the countryside or else. 
Those were the choices I had and those are the fears that I 
still live every night.
    I was caught three times and I was sold three times, and 
after the third time that I was human trafficked I found an 
escape.
    Since this was during winter time at minus 30 Celsius, I 
had escaped to ensure that my footprint would not be found. So 
I had to walk in the little stream that was there and as a 
result I had frostbite, and the frostbite keeps on reminding me 
of what happened. Every winter I get them back.
    However, this is not something that I myself am the only 
one living with. It's something that many of the refugees from 
North Korea are living with and also especially true for 
children from North Korea.
    What I had led was a very harsh life and what I had to 
endure was very dreadful. But for me, there was hope. The hope 
came in the name of freedom, Free North Korea Radio.
    When I had initially heard the broadcasting on Free North 
Korea Radio, initially I had thought actually this was sort of 
a propagation by South Korea, possibly by the National 
Intelligence Service of the South Korean Government in order to 
lure North Koreans into South Korea.
    There is a movie that's widely shown in North Korea. It's 
called ``Psychological Warfare.'' Basically, the story goes 
South Korean Government lures North Korean people into South 
Korea, takes their intelligence, and kills them all.
    When I watched the movie, I truly believed this was what 
was taking place, and not just me but I believe other North 
Koreans also believed that to be true.
    Well, one of the programs that was quite impressive to me 
when I heard in China broadcasted by Free North Korea Radio was 
about Seong Hye-rim. The title of the program was, ``I am 
Friend of Seong Hye-rim.''
    Seong Hye-rim is a wife to Kim Jong-il, and in that program 
I heard about all the women that Kim Jong-il and Kim Il-song 
around them and all the womanizing that took place. It was a 
shock to me because these are the very people that we had 
worshipped while we were in North Korea but I came to realize 
that they were trash of human beings.
    And also, we had been told that Hwang Jang-yop, the 
Secretary, had been killed by commandoes sent by North Korea to 
South Korea. However, through the broadcasting we learned that 
he was alive and well and I heard his voice and many of the 
messages that he had sent for us.
    While I was living in China, hiding from the authorities, I 
really wanted freedom and I realized freedom was not free--that 
I could not just sit still and try to get freedom. I had to 
find my way to freedom.
    So what happened was in August 2008, I was given a compass 
and just a compass--that's all I had--and I walked across the 
deserts of Mongolia. I believe it was Gobi Desert that I 
crossed and eventually ended up in South Korea.
    Even today, there are many North Koreans who are living in 
China and they want freedom. However, these people are in fear 
of the Chinese authorities who are repatriating these people to 
North Korea.
    And when these North Koreans are repatriated back into 
North Korea, what is waiting for them is not all that pleasant. 
Many would be sent to political prisons. Others would be 
tortured and some may even be executed.
    One time I was cut by the authorities and I was sent to a 
state security prison, and in the prison I stayed there for 
about 15 days. I recall there was a woman who was repatriated 
from China.
    She was pregnant and the guards yelled out that she was 
pregnant with impure blood, and I believe that she was beaten 
to the point where the pregnancy was terminated.
    However, the actual beating was not by the guards but at 
the command of the guards the North Korean men who were 
repatriated, these were the people who were forced into beating 
the woman, and what choice did these men have?
    Well, it's laughable that on the World Human Rights Day 
that North Koreans would come out and say that they do respect 
human rights.
    Well, these are the people who still, to this date, are 
carrying out public executions and also they consider their 
residents less than logs or coals.
    Perhaps the biggest abuse of human rights by North Koreans 
would be starvation that North Korean people are having to 
suffer and also the nonprovision of the bare necessities that 
these people need to have as human beings.
    And let me speak briefly on my father, who had to have his 
legs amputated. He went to China looking for food for us. 
However, he was caught and later had to amputate his legs for 
some reasons.
    And why was it that he had to lose his legs? Well, after 
having been caught by the military, he was sent to a prison and 
at the prison actually he was facing the Tumen River on a 
certain night and he did not have anything on him.
    He was completely naked and he was forced to kneel looking 
toward the Tumen River. It was minus 30 degrees Celsius and he 
was beaten by a leather belt and thereafter he was left 
kneeling, looking toward the river, for the night and as a 
result he had frostbite and his legs had to be amputated.
    And after the amputation it didn't take long for his life 
to be ended. It is laughable that they would have a declaration 
of human rights when the regime itself is carrying out all 
these atrocities including stratification of people into 
classes based on who they were born or based on their lineages 
and not even providing the basic necessities required for human 
beings.
    The ruthlessness of the North Korean regime has gotten even 
worse since Kim Jong-un has come into power in 2011. However, 
this tyranny cannot last forever. We know that.
    And the very reason why he carries out these politics of 
fear is because there is collapse that's taking place 
internally in North Korea and this is very apparent by hearing 
from North Koreans who have escaped. One would be the very 
soldier who had escaped through the joint security area not too 
long ago and then there are other North Korean refugees who 
have been interviewed by our radio.
    And what we do at the Free North Korea Radio is to listen 
to the refugees. We use their voices and we compare the lives 
of North Koreans and South Koreans and also tell the truth 
about what takes place outside of North Korea.
    And what we do is we have network of people in North Korea 
including elites of North Korea who would be provide 
intelligence and information to us and those information are 
disseminated through broadcasting.
    Included in our activities are not just the broadcasting 
but also sending materials into North Korea by way of crossing 
the border between China and North Korea.
    We have sent many USBs, SD cards, CD players, and radios to 
North Korea, and of the refugees that have been surveyed, 5 to 
10 percent of the people have stated that they have actually 
heard broadcasting through Free North Korea Radio.
    When we are talking about North Korea, they are completely 
eliminating flow of information from outside. When you say 5 to 
10 percent of people have heard, that's a lot of numbers.
    And also for 10 minutes per day we have music that's 
played. But this is actually a play on words because we use the 
North Korean music but we change the lyrics so that it's not 
about Kim Jong-un or Kim Jong-il any longer.
    For example, there would be music titled, ``In My Father's 
Footsteps'' and we would switch the word father into Jesus, and 
also that ``We trust in the general'' the general would be 
changed into ``in our God.''
    By using the tunes that are familiar to North Koreans but 
changing the lyrics, it's gotten easier for us to get the 
information into North Korea and into the heads of these 
people.
    My mother still remains in North Korea and I have heard 
through certain people that she's doing okay and that she's 
also worshiping the God that I believe in.
    So the sarcastic saying is that amongst North Korean people 
North Korea is known as a capitalistic society with a twist, 
and what that tells us is that there is tremendous internal 
collapse that's taking place in North Korea.
    And that is why Kim Jong-un is ruling by fear. He knows 
that his control and grasp on North Korean people is slipping.
    Mr. Smith. If I could just interrupt 1 second, and I would 
ask you to continue your testimony momentarily.
    Just to ask a couple of questions--I have to leave. One of 
my bills, H.R. 3655, is on the floor in about 5 or 10 minutes. 
I will come back as soon as it's over.
    Dan Donovan, thankfully, has agreed to take the chair. So 
please come back. But I would want you and Ms. Ji to address, 
if you would, you have said that Kim Jong-un--it's even worse.
    Suzanne Scholte, who is the sole Peace Prize Laureate who 
has testified numerous times before this and other committees 
of Congress, points out that it's even worse under Xi Jinping 
because of his policies.
    So it's worse in China. It's worse in North Korea under Kim 
Jong-un. If you could elaborate on that it would be very 
helpful.
    If we were a panel of Chinese leaders, what would you say 
to them, especially it is illegal for them to forcibly 
repatriate North Korean defectors pursuant to the Refugee 
Convention to which, as we all know, they are signatories to.
    And finally, if you could speak to the issue of the cult of 
Kim--the godlike cult that they--and Juche that they inculcate 
beginning from the earliest years. How did you break out from 
that, since the propaganda is ever present and all--other than 
the great work you're doing, the information flow almost never 
happens during all of those formative years. So people come to 
believe that Kim is God--if you could speak to that.
    And I will have to read your answers on the transcript as I 
run off to this hearing.
    Voice. Can she finish her prepared statement?
    Mr. Smith. Of course. Please finish it. Exactly.
    Ms. Hee. And in times like this, it's more important that 
we get the right information into North Korea so we need to 
make sure that there is a steady flow of information into North 
Korea so the people in North Korea would come to realize what 
is really taking place out there.
    And so my focus is really on information flow. We need to 
have more information, more truth be told to the people of 
North Korea, to have this information flowing into North Korea, 
and in this regard we seek help from the U.S. Government and 
the U.S. Congress.
    And I hope and I believe, once we have this information 
going into North Korea that the collapse of North Korea would 
be not in the distant future but tomorrow.
    Thank you.
    [The prepared statement of Ms. Hee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                    ----------                              

    Mr. Donovan [presiding]. Thank you, Ms. Hee.
    I am not too sure if you remember the chairman's questions. 
He wanted those answered. So he could read the transcript.
    So I'd ask Ms. Ji if you would answer the chairman's 
questions first and then, Ms. Hee, you can answer the questions 
as well.
    Ms. Ji. So I'll answer the congressman's second part of the 
question, which was if Chinese leaders were sitting in front of 
me how I would address them, and the first thing I would tell 
them is that the Chinese Government must stop the policy of 
forced repatriation of North Korean defectors back to North 
Korea.
    And North Korean defector women have become sort of a 
commodity in the sense that when they are being led away by 
unscrupulous Chinese brokers, the Chinese security apparatus 
members, some of them they will intercept this transaction and 
they themselves will get involved with the human trafficking 
and, in turn, sell the women to the highest bidder to other 
brokers. So this is happening in China right now among the 
security people of China.
    And I myself explain exactly that. I was actually in the 
process of being sold by the Chinese security officials. But 
because I was screaming and resisting so much, that's how I was 
able to escape when they were sort of stunned at my resistance 
that I showed to them when I was undergoing this treatment.
    North Korean defector women are not commodity. They are not 
material goods. They are human beings. And the fact that the 
Chinese Government officials--security officials--are--some of 
them are being involved with this is something that the 
international community should not forget or forgive.
    And the second thing that I would tell the Chinese 
officials if they were sitting in front of me in this room 
would be that the North Korean defector women who are forced to 
marry the Chinese men, the mothers themselves are basically 
stateless.
    But when they become pregnant by the so-called Chinese 
husband, the children that they bear they are stateless too. 
They have no identity. They don't exist, according to the 
Chinese Government. And in China right now, the mothers of 
these children, many of them have been repatriated back to 
North Korea.
    So you have a lot of kids who are either orphans or who do 
not have mothers or they basically are not cared for. So a lot 
of these children born to Chinese fathers and North Korean 
defector women are living in a very difficult situation in 
China right now.
    And what I would desire is that either process these 
children to be sent to South Korea or grant them some sort of 
identification or citizenship in China to these children born 
to Chinese husbands and North Korean defector mothers.
    And lastly, I would urge the Chinese Government to keep its 
promise as a signatory to the convention relating to status of 
refugees and to faithfully carry out its duties as a signatory 
to that convention by protecting the North Korean defectors 
that come into China instead of repatriating them.
    Lastly, I would say, as I mentioned in my testimony, North 
Korean defectors, when they are repatriated from China to North 
Korea, they face unspeakable inhumane treatment, sometimes even 
death, at the hands of the North Korean authorities.
    So the Chinese Government should accept the North Korean 
defectors that come to China and process them to be sent to 
South Korea.
    Mr. Donovan. Thank you very much.
    Ms. Hee, would you mind answering the chairman's questions?
    Ms. Hee. You ask how the current Kim Jong-un regime is 
different from the previous Kim Jong-il regime.
    Well, he is ruling by fear and it's very much of a fear 
that's being put into the minds of North Koreans. Kim Jong-un 
is a child who does not know the season and who in their right 
mind would want to go up against a superpower that is the U.S. 
and threaten the U.S. with nuclear capabilities that are not 
even completely mature?
    Well, my mom tells me when Kim Jong-il was in power, when 
celebratory occasions, on holidays, that there would be 
rationing provided by the government. But now that Kim Jong-un 
is in power, we don't have any rationing at all on any 
occasion.
    And the rule of fear or rule by fear is one strike, you're 
out. There are no generosities to be exhibited. We are not 
aware of any government upon change of power to have over 300 
elites of the government be publicly executed by way of air 
guns. Actually, that would be anti-aircraft artillery. And why? 
Why does he do that? Because he wants to rule by fear and this 
is the way he does it.
    And Kim Jong-un will continue to rule by fear. The way we 
will be able to stop the rule by fear is not by restraining him 
but alerting and raising the awareness amongst North Korean 
people as to what's taking place outside, epically true about 
South Korea--how much of a freedom and economic prosperity that 
we live in.
    And tying into the question about China, well, in order for 
us to be able to stop this ruling by fear, the pressure should 
not be on North Korea alone. The pressure should also be on 
China.
    What is true before is also true now, that China and the 
Chinese people would say that they are pressuring North Korea. 
No pressure there.
    Do you know why Chinese authorities repatriate North 
Koreans back to North Korea? For each person that's repatriated 
there is a return. They get logs and they get coal.
    The way I was caught by the Chinese authorities was an 
informant talked about me and I understand that that informant 
was getting 2,000 Chinese yuan. So per report that they make, 
they get 2,000 yuan.
    So when I was caught by the Chinese authorities, who are 
known as Gong An, I asked them why do you have to take me and 
why do you need to send me back to North Korea and what one of 
the officers had told me was that he had to make a living and 
this was an agreement between the governments.
    They know very well that once we are repatriated we will be 
suffering at the hands of North Korean guards. So the basic 
idea--there is a math--that we may die once we get back to 
North Korea but Chinese people would be getting the logs and 
coal.
    So about 70 percent of the North Korean territory and the 
seas are really actually mined by the Chinese people. So when 
that is true, would Chinese people really want to put the 
pressure on North Korea and would they really want unification 
on the Peninsula?
    So we can talk all day and we can have all these slogans 
asking for Chinese to put more pressure on North Korea. But 
these would be empty slogans. Nothing would come of them. We 
need to have real pressure that can be felt by the Chinese 
people.
    Thank you.
    Mr. Donovan. Thank you very much. Thank you, both of you, 
for your opening statements. Thank you for sharing your 
horrific experiences with us.
    I'd just like to ask one or two questions and then we have 
a second panel, and you've been sitting there graciously for 
over an hour for us.
    About 70 percent of the people, refugees from North Korea, 
are women. Why is that? Why do you feel most of the refugees 
are women?
    Ms. Hee. It's a strange question to answer but it's a good 
question nevertheless, because we don't know why. But in North 
Korea we have more women than men.
    And also men are serving in the military. It's mandatory. 
They have to serve for 13 years. So when you are stuck in a 
system for 13 years you're not getting out easy.
    For a woman, once we escape to China we have other means 
for making a living. We can work in restaurants and we may even 
be trafficked. But still, we get to eat. But that does not 
happen for men. There are not a lot of things that they can do 
in China and also once they go to China they get captured a lot 
easier. It's just simply very hard for men to hide in China.
    Mr. Donovan. Thank you very much.
    I would just ask you, you were talking about when women 
refugees then marry a Chinese man and have a baby, is the baby 
repatriated back with the mother back to North Korea once 
you're captured and if so, is there a difference if the child 
is a boy compared to if the child is a girl?
    Ms. Ji. I myself personally did not witness the children 
born to defector women and Chinese fathers being repatriated 
together with the North Korean defector women.
    However, I am aware that there are cases where the children 
born to--even though I haven't seen it myself, I am aware that 
that does happen where the children born to the defector women 
and the Chinese fathers are--if they are arrested together are 
sent back--repatriated back to North Korea.
    And regardless of whether that child is a boy or girl, 
there is no difference in the eyes of the North Korean regime, 
and usually they are sent to an orphanage and the mothers are 
sent to a re-education prison camp for punishment.
    Mr. Donovan. I was curious if the Chinese saw a difference 
between a boy being born to a Chinese man.
    Ms. Ji. The Chinese family members of the husband, if the 
mother--the defector woman--gives birth to a boy, they prefer 
sons, obviously. So they would prevent the mother from getting 
pregnant again because if they have a boy then they are 
satisfied.
    That's what they would want, to just keep it at that in 
terms of the viewpoint of the Chinese family and the Chinese 
husband.
    Mr. Donovan. Before I yield to Mr. Castro, if I could just 
ask each of you--I think you touched on it in your opening 
statement, Ms. Hee--but what would you like to see the United 
States Government do?
    Ms. Ji. Well, first of all, I would like to thank the U.S. 
Government for its great interest and concern for the North 
Korean human rights issue and also for, in recent days, 
pressing for the increase and stronger sanctions to punish the 
North Korean regime.
    So I would like to express, first of all, my appreciation 
for that position taken by the U.S. Government in terms of 
dealing with the North Korean regime.
    But I believe a stronger sanctions enforcement should be 
put in place by the U.S. Government toward the North Korean 
regime.
    And in addition to strengthening sanctions against the 
regime, the U.S. Government should expand and increase the 
activities of information dissemination into North Korea, and 
the latest ways that the U.S. can do that is to provide 
internet by using satellite, for example, and that's one way 
that the U.S. Government can help bring outside information to 
the North Korean people directly, bypassing the regime's 
control.
    Mr. Donovan. Ms. Hee.
    Ms. Hee. Would it be okay if I were to address an earlier 
question about repatriation of kids?
    Mr. Donovan. Yes. Certainly.
    Ms. Hee. Yes, that does take place in China. So under two 
separate scenarios, one would be if, as a mother, you are 
caught on the streets with your child, then you would both get 
repatriated. And also, if there is a raid and the child does 
not want to detach itself from the mother, then they both get 
repatriated.
    And who actually does the repatriation? The Chinese 
Government. That's what they do. They are smiling behind their 
curtains, and we have all these slogans--all these empty 
slogans that are not heard by anybody in China.
    Mr. Donovan. My last question the committee would like to 
have at least on the record about reports recently that the 
Chinese Government is building at least five refugee camps 
along the border. I am curious whether your sources can confirm 
that and what you think that may mean.
    Ms. Hee. I believe that's in the news but I don't believe 
that was confirmed yet and through our sources we have not been 
able to confirm it. So maybe it's not happening.
    Ms. Ji. So I myself, even though I've heard of those 
reports of the Chinese Government supposedly building these 
facilities, I don't know for sure but I do know for a fact that 
through people that have contacted me from inside China and 
other sources that the Chinese Government, they fear a rush of 
North Korean people escaping from North Korea in case there is 
a war or some sort of major event happening.
    So to prevent that that the Chinese Government on the 
Chinese side of the border they have reinforced the 
surveillance and the security in the region, for example, 
putting up more electrified fences and strengthening on the 
Chinese side their mechanisms to prevent North Koreans from 
crossing over in case of a major event.
    Mr. Donovan. I thank you both for your diligence and the 
chair now recognizes the gentleman from Texas, Mr. Castro.
    Mr. Castro. Thank you. Thank you for your courage and your 
bravery and also for coming here to testify today.
    I have a question about the families that are left behind 
after people leave North Korea, after they defect. How are 
those family members treated after people leave North Korea?
    Ms. Hee. I escaped alone. I have my family still in North 
Korea. I think my family is still safe. That's because North 
Korean authorities do not really know that I am here.
    So I have also feared for the safety of my family and so I 
have thus far not worked in the open. So in November of this 
year, I had a teleconversation with my mom and I told mom that 
I would like to do more activities in the open regarding human 
rights, and this would bring about unification on the Korean 
Peninsula sooner, I told her.
    But I also told her I was very much in fear for her 
welfare. And what my mom told me was that each day it's 
becoming harder for her to breathe and that she would die one 
way or another.
    She didn't care, and she told me that I should do what I 
thought was the right thing to do. And that is why I am now in 
the open for 8 years working for Free North Korea Radio. No one 
knew of my identity. Now, perhaps, they do.
    Mr. Castro. And you live in South Korea now?
    Ms. Hee. Yes.
    Mr. Castro. Okay. I have a follow-up question but I wanted 
to give you an opportunity to answer the same question.
    Ms. Ji. So as I mentioned in my testimony, all my family 
members are with me in South Korea except for my father, who 
has been missing for the past 19 years, and I have been able to 
get in touch with my aunt, who is still in North Korea. I have 
been able to send her money and also every once in a while call 
her as well.
    But it's been about 10 years since I've been an active 
human rights activist out in the open. I've written two books 
already.
    But it's been more than a year that I have had trouble 
trying to get in touch with my aunt. So perhaps the regime has 
finally caught up to what I am doing and perhaps did something 
to my aunt. I don't know. But it's been hard for me to get in 
touch with my aunt.
    Mr. Castro. You don't know if she's been punished or what 
happened?
    Ms. Ji. So I was able to send somebody through, using 
brokers and through sending money to send somebody to my aunt's 
house in her village. But the report I got back was that the 
house was empty. There was nobody at the house. So something 
happened to my aunt. I just don't know exactly what happened to 
her.
    Mr. Castro. And are you living in Seoul now or in South 
Korea?
    Ms. Ji. Yes, I am living in South Korea.
    Mr. Castro. Well, I have a question for both of you.
    One of the goals for a long time for the people of South 
Korea and, I imagine, many people in North Korea has been for 
unification of what for decades now has been two separate 
countries.
    And I asked the same question of another defector when we 
did a larger Foreign Affairs panel--the main committee panel--a 
few months ago.
    Is reunification realistic, given the fact that these 
countries have been separate countries now for many decades and 
you have now seen both societies--both North Korea and South 
Korea.
    How significant are the differences? Can those differences 
be bridged for reunification?
    Ms. Ji. So as you mentioned, I did experience both life in 
North Korea and now I am living in South Korea, and North Korea 
is a Communist regime and South Korea is a free market 
capitalist society.
    And for me, upon my first time being in South Korea as I 
started my resettlement it was very difficult for me to adjust 
to a life of freedom and a free market capitalist environment.
    However, after some time I was able to adjust very well 
into this democratic free society in South Korea and so far 
there have been up to around 32,000 North Korean defectors that 
have resettled in South Korea and out of the 32,000 defectors I 
would say about 80 percent of those defectors in South Korea 
like myself are able to send money to our relatives and family 
members in North Korea.
    So I have heard from not only the sources in North Korea 
but from other sources as well that many North Korean people in 
North Korea who have family members in South Korea have been 
aware that South Korea is a country that is rich, that is 
abundant, and that South Korean products are sought after, and 
that in some cases the high-ranking officials even want to 
marry off their children to family members of North Koreans who 
have people that have escaped to South Korea because that means 
they are able to get money from their relatives in South Korea.
    So that's been the sort of shift that's happened in North 
Korea regarding their views on South Korea and South Koreans.
    And you mentioned the differences between North Korea and 
South Korea. So I would say that even though North Korea may be 
a Communist system on the outside, but inside the people, 
because of the emerging markets and because of the capitalist 
ventures started by many citizens in North Korea, many North 
Korean citizens are more aware of and they have become very 
well attuned to the free market capitalist ideals that we would 
find in South Korea, for example.
    And I personally believe that this may lead to a quicker 
fall of the regime and an even faster reunification of the two 
Koreas in the Korean Peninsula.
    Mr. Castro. I yield back. Thank you.
    Mr. Smith [presiding]. Thank you.
    I want to thank our very distinguished and courageous panel 
for your testimony and, above all, for your life's work, which 
has been extraordinary.
    And some day, when North Koreans are free you will be among 
the true heroes who helped make it happen. So thank you so very 
much.
    Ms. Ji. Thank you very much.
    Mr. Smith. Dan, thank you.
    I would like to now welcome our second panel, if I could, 
to the witness table, beginning first with Ambassador Robert 
King, and I want to say a big welcome back to Dr. King, who, 
for so many years, sat over here with Tom Lantos as his top 
chief of staff. So it's great to have Ambassador King back.
    He, as I think most will know, was our special envoy for 
North Korean human rights issues from 2009 to 2017. Since 
leaving the department he is senior advisor to the Korea chair 
at the Center for Strategic and International Studies.
    For 25 years--a quarter of a century--from '83 to '08 
Ambassador King served as chief of staff to Congressman Tom 
Lantos when Mr. Lantos became ranking minority member and then 
chair of the House Foreign Affairs Committee.
    Dr. King served as committee staff director, and that was 
from '01 to 2008. In addition to his full time jobs, Dr. King 
has taught courses in U.S. foreign policy and international 
relations at the University of Southern California German study 
program, Brigham Young University study abroad program, 
American University in Washington, DC, New England College in 
New Hampshire.
    Ambassador King is the author of five books and over 40 
articles on international relations topics. We welcome him back 
again to the committee.
    I would like to then welcome and introduce Greg Scarlatoiu 
with the Committee for Human Rights in North Korea. He's the 
executive director of the committee.
    He has coordinated 20 HRNK publications addressing North 
Korea's human rights situation and the operation of its regime. 
He is a visiting professor at the Hankuk University of Foreign 
Studies in Seoul as well as instructor and coordinator of the 
Korean Peninsula and Japan class at the U.S. Department of 
State's Foreign Service Institute.
    Prior to HRNK, Mr. Scarlatoiu was with the Korea Economic 
Institute. He has over 6 years of experience in international 
development on projects by the U.S. Agency for International 
Development, the World Bank, and the Asia Development Bank.
    In 14 years he has authored and broadcast weekly in the 
Korean language. It's called the Scarlatoiu Column and it's 
with Radio Free Asia.
    A seasoned lecturer on Korean issues, Mr. Scarlatoiu is a 
frequent commentator for CNN, BBC, Al Jazeera, Voice of 
America, Radio Free Asia, and other media operations. He has 
appeared as an expert witness at several congressional hearings 
on North Korean human rights and so we welcome him back today 
as well.
    And our third distinguished panelist will be Suzanne 
Scholte, who is also making a trip back and in the past has 
provided expert witnesses to this subcommittee and other 
committees of Congress including, as I mentioned earlier, the 
first women who were ever trafficked that came forward and 
spoke at a congressional hearing--trafficked, that is, from 
North Korea into China--and it was extraordinarily moving 
testimony.
    She is considered one of the world's leading activists in 
the North Korean human rights movement. She has spent the past 
two decades promoting the freedom and dignity of the North 
Korean people and is currently president of the Defense Forum 
Foundation, a nonprofit foundation promoting a strong national 
defense and freedom, democracy, and human rights abroad.
    In 1996, she began a program to host the first North Korean 
defectors in the United States, giving them a voice to speak 
out about atrocities being committed against the people of 
North Korea including the political prison camps and the 
horrific treatment of refugees.
    She has led international efforts to pressure China to end 
their horrific repatriation policy and has been involved in the 
rescue of hundreds of North Koreans escaping their country.
    Currently, she also serves as the chairwoman of the North 
Korea Freedom Coalition, vice co-chair of the Committee for 
Human Rights in North Korea, and honorary chair of the Free 
North Korea Radio.
    I welcome all three of our distinguished panelists and I 
yield the floor to Dr. King.

 STATEMENT OF THE HONORABLE ROBERT KING, SENIOR ADVISER, KOREA 
 CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES (FORMER 
    U.S. SPECIAL ENVOY FOR NORTH KOREAN HUMAN RIGHTS ISSUES)

    Mr. King. Thank you very much, Mr. Chairman.
    It's a pleasure to be back with you again. Usually I sat on 
the other side behind you and Mr. Lantos. It's a different 
position to be down here today but I am glad to be ``home.''
    I want to thank you for your focus on human rights and for 
what you have done with the subcommittee in terms of calling 
attention to these issues and problems.
    I want to commend you on the caliber of the witnesses--the 
other witnesses that have testified today. It was extremely 
helpful to have these two women who have, at great difficulty, 
been able to leave North Korea and talk about their 
experiences, and again, it's a pleasure to be here with Greg 
and with Suzanne to talk about these issues.
    Refugees or defectors who have chosen to leave North Korea 
is one of the key issues in the broader question of human 
rights in the North.
    There has been a steady flow of defectors from the North 
since the famine of the late 1990s. Over the last two decades, 
some 30,000 North Koreans have fled the country. The vast 
majority have resettled in South Korea.
    The concern of Americans to help these defectors from the 
North was one of the principal factors behind the adoption of 
the North Korea Human Rights Act in 2004.
    Since the adoption of that legislation, the State 
Department and other Federal agencies have helped some 250 
North Korean refugees resettle in the United States.
    Most refugees, however, have chosen to settle in South 
Korea because of the familiarity of language and culture, as 
well as to join family members who are already there.
    The number of refugees leaving North Korea annually has 
recently declined. The high point, in about 2011, was some 
3,000 annually.
    But tighter control of the borders by the North and 
difficulty getting through China has caused that number to fall 
to less than 1,500 last year. The numbers this year look like 
they will be even lower.
    Virtually all defectors who flee North Korea today do so 
through China. Very, very few have been able to cross the 
inner-Korean border.
    A few weeks ago we saw a very rare exception when a North 
Korean soldier was seriously wounded as he tried to escape and 
fled through the DMZ.
    This indicates both the danger and how uncommon it is for 
defectors to go directly from the North into South Korea.
    For those who escape through China, there are very serious 
problems from being trafficked, sold as virtual slaves, or 
being returned to the North.
    In the past, when relations were good between China and 
North Korea, most defectors captured in China were quickly 
returned to North Korea where they were sent to brutal re-
education camps that earlier witnesses have talked about here.
    A couple of years ago, I had a particularly memorable 
conversation in South Korea with a young women who had fled the 
North. She was finally able to reach the South.
    I asked her if this had been her first attempt. She said, 
``Oh, no. This was my sixth try.'' Five times previously, she 
sought to leave. Five times she was captured either in North 
Korea before she left or as she crossed into China.
    She was returned to North Korean authorities and spent many 
months each time in a re-education camp where she was brutally 
treated.
    On her sixth attempt, she and a friend who was going to 
leave with her, decided to go but they also decided to take 
with them poison tablets. Rather than be forcibly returned 
again and sent to a re-education camp they would have taken 
their own lives.
    In the past, Mr. Chairman, when Chinese relations with 
South Korea have been good and China's relationship with the 
North has been strained, defectors have been allowed to go to 
South Korea.
    A couple of years ago in a very highly unusual arrangement, 
China allowed some 13 or 14 North Korean restaurant workers to 
fly directly from China to South Korea where they were 
resettled.
    A year or so ago, however, after the United States, with 
the cooperation and approval of the South Korean Government, 
established a THAAD missile battery in the South, this led to 
strained relations between China and South Korea.
    Since that time, it has, again, been more difficult for 
defectors from the North to reach South Korea through China.
    The United States Government has strongly supported South 
Korean efforts to assist defectors reach the South. On many 
occasions, I personally raised with senior Chinese Government 
officials our concern that defectors be permitted to flee the 
North, if that was their wish.
    I know that other, more senior State Department officials 
have also raised this matter with senior Chinese officials.
    Mr. Chairman, it's important that the United States 
continue to urge China to allow defectors to resettle elsewhere 
and if they wish to go to the South, our Government should 
continue to support South Korean Government efforts to help 
those people.
    Congressional support for refugees such as through the 
reauthorization of the North Korea Human Rights Act is 
important, and I urge approval of that reauthorization 
legislation. It has already been adopted in the House. It's now 
awaiting action in the Senate. But it's urgent and it's 
important that the legislation be reauthorized.
    A second matter that I was asked to talk about was the 
issue of providing free and unfettered information to the 
people of North Korea. The availability of accurate information 
about events beyond the borders in the North is extremely 
important to the North Korean people.
    Information limits Pyongyang's ability to manipulate its 
own citizens, and we must continue to encourage the free flow 
of information into North Korea. Although it is illegal to own 
a radio or television capable of being tuned to stations other 
than the official government station, based on survey research 
we estimate that as many as a third of North Koreans listen to 
foreign radio broadcasts, particularly programs from Voice of 
America and Radio Free Asia funded by U.S. congressional 
appropriations.
    These are extremely important. There are other creative and 
innovative programs which we fund--the U.S. Government funds--
to get digital information to the North Korean people. These 
efforts need to be fully funded, encouraged, and expanded.
    Mr. Chairman, military options against North Korea are 
severely limited. But one thing that we can do that will 
encourage positive change in the North is to increase the flow 
of accurate information from the outside world.
    Our human rights efforts are an important aspect of our 
policy toward North Korea. We must not underestimate the value 
and importance of those efforts.
    Thank you very much, Mr. Chairman. I look forward to any 
questions that you have.
    [The prepared statement of Mr. King follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Mr. Smith. Thank you, Ambassador King.
    Mr. Scarlatoiu.

   STATEMENT OF MR. GREG SCARLATOIU, EXECUTIVE DIRECTOR, THE 
           COMMITTEE FOR HUMAN RIGHTS IN NORTH KOREA

    Mr. Scarlatoiu. Mr. Chairman, thank you for the invitation 
to testify before you and the subcommittee today. It is a true 
honor and a privilege.
    The most critical challenge our country faces today is the 
nuclear and ballistic missile threat posed by the regime of Kim 
Jong-un.
    Grateful for the subcommittee's unabated determination to 
protect North Korean refugees in China, I respectfully urge you 
to continue to consider the vital importance of formulating and 
adopting a robust human rights policy including a North Korean 
refugee protection policy that can be integrated into U.S. 
security policy toward both China and North Korea's Kim regime.
    In 2014, China received a warning by the U.N. Commission of 
Inquiry that its policy of forcefully repatriating North Korean 
refugees could potentially amount to aiding and abetting North 
Korean perpetrators of crimes against humanity.
    China has been put on notice that its policies, practices, 
and support for North Korea are unacceptable. Yet, at the 
fourth annual U.N. Security Council meeting on human rights 
abuses in North Korea held yesterday, China called for a 
procedural vote to stop the public meeting.
    This effort failed but China persists in its efforts to 
support the Kim regime as evidenced by its forcible 
repatriation of North Korean refugees.
    Up to 80 percent of North Korean refugees in China are 
women. In the absence of any semblance of protection, they fall 
victim to human traffickers and other criminals.
    Many of those forced into sexual bondage under the guise of 
marriage with Chinese men in rundown rural areas are often 
abused by the would-be spouse and the entire family.
    Their children's human security is beyond precarious. China 
denies North Korean children the right to education, health, 
and personal security as well as liberty when they are 
detained, awaiting forcible repatriation.
    Our 2015 HRNK report, ``The Hidden Gulag IV,'' documents 
the particular vulnerabilities of North Korean women jailed in 
a network of political prison camps--kwan-li-so--and labor 
camps--kyo-hwa-so.
    Increasingly, these facilities house women who have 
attempted to flee the country and here rates of mortality, 
malnutrition, forced labor, and exploitation are high.
    China does not uphold its obligations under international 
law, as evidenced by the forcible repatriation of North Korean 
refugees in need of protection.
    China denies many North Koreans the ability to apply for 
asylum or have safe passage to the Republic of Korea or other 
countries. China claims that North Koreans are illegal economic 
migrants.
    In reality, however, not only are North Koreans targeted 
for escaping the totalitarian state, but they are targeted by 
the Chinese Government and ultimately victimized again once 
repatriated to North Korea and imprisoned. It truly is a 
vicious cycle of political oppression and violence perpetrated 
against countless innocents.
    Mr. Chairman, I respectfully recommend the following. 
First, the United States should urge China to immediately halt 
its forcible repatriation of North Korean refugees and thus 
fulfill its obligations under international treaties and 
customary international law.
    Second, the United States should call upon China to allow 
the U.N. High Commission for Refugees unimpeded access to North 
Koreans inside China to determine whether they are refugees and 
whether they require assistance.
    Third, the United States should call upon China to adopt 
legislation incorporating its international obligations under 
the Refugee Convention and the Convention Against Torture.
    It should be expected to declare and uphold a moratorium on 
deportations of North Koreans until its laws and practices are 
brought into line with international standards.
    Fourth, the United States should call upon China to 
recognize the legal status of North Koreans who marry or who 
have children with Chinese citizens and to ensure that all such 
children are granted resident status and access to education 
and other public services in accordance with both Chinese law 
and international standards.
    Fifth, in the absence of a Chinese response the issue 
should be brought before international refugee and human rights 
fora.
    UNHCR's executive committee as well as the U.N. Human 
Rights Council and General Assembly of the United Nations 
should all be expected to call on China by name to carry out 
its obligations under refugee and human rights law and enact 
legislation to codify these obligations.
    Sixth, the United States should promote a multilateral 
approach to the problem of North Koreans leaving their country 
based on the principles of non-refoulement and human rights and 
humanitarian protection.
    Building on the precedent of other refugee populations, 
international burden sharing should be developed to protect 
North Koreans seeking to escape the tyranny of the Kim regime.
    Seventh, following the passage of the North Korean Human 
Rights Reauthorization Act of 2017, which mandates the position 
of the special envoy for North Korean human rights, I 
respectfully urge the U.S. Congress to encourage the prompt 
appointment of a qualified candidate.
    I strongly believe that this particular issue merits the 
full time high-profile focus across various agencies that the 
special envoy has so effectively brought and would continue to 
bring.
    And eighth, and finally, additional funds should be 
appropriated for clandestine information flows into North 
Korea, for nongovernmental organizations working to improve 
human rights in North Korea, and for the resettlement of North 
Korean refugees in the United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Scarlatoiu follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  ----------                              

    Mr. Smith. Thank you very much for your leadership and for 
that very detailed set of recommendations.
    Ms. Scholte.

  STATEMENT OF MS. SUZANNE SCHOLTE, PRESIDENT, DEFENSE FORUM 
     FOUNDATION, CHAIRWOMAN, NORTH KOREA FREEDOM COALITION

    Ms. Scholte. First of all, I know I am going to embarrass 
you when I say this but I can't help it, Congressman Smith. 
[Laughter.]
    The last time we were together there were 18 North Korean 
defectors in your office, and I have to tell you when we walked 
out of there, those defectors said, ``That is the greatest man 
we've ever met,'' because you were so great to them and you 
have been focussing on this issue for decades.
    And so I thank you so much for your leadership on this, for 
your bringing this hearing together today and I just wanted to 
say what a great, awesome person you've been.
    I am also really happy to be here with Bob King, whose door 
was always open, who was always ready to help us when found out 
about a refugee that was in danger, always willing to speak out 
in--from small towns to college campuses and really raise the 
North Korean human rights profiles--issues as the special envoy 
for President Obama.
    And also for my colleague, Greg--one of the things on my 
top 10 list of good things I've done in my life was insisting 
that he become the executive director of HRNK. So I am really 
glad to be with these gentleman.
    So I have a very extended written testimony I've already 
submitted so I am going to be really brief and try to stay 
within the five--I think I got this down to 5 minutes 8 
seconds.
    So anyway, I want to make three main points. One, the 
situation facing North Korean refugees in China is worse than 
ever. Xi Jinping has brought us to a crisis stage because of 
his support for the regime.
    Today we are relying on China to help us make sanctions 
effective to rein in Kim Jong-un's nuclear ambitions. But if 
China continues to forcefully repatriate men, women, and 
children back to North Korea to face certain torture, certain 
imprisonment, and, in some cases, execution, what does that 
tell us about Xi Jinping's sincerity?
    The international community must insist that China and its 
cruel, inhumane, and illegal repatriation policy--China's 
policy as been--as been pointed out is a death sentence for 
North Koreans and as Ambassador King pointed out, 80 percent--
and talked about the defectors poisoning themselves--we know 80 
percent of North Korean defectors carry poison to kill 
themselves and we saw that dramatically happen this summer when 
the Korean Workers Party member, his wife, and three children 
committed suicide when the Chinese, on orders by Beijing, 
ordered them back to North Korea after they begged to be 
allowed to go to South Korea.
    The Chinese Government continues to not only forcefully 
repatriate refugees but refuses to allow the UNHCR any access, 
but also gives free rein to North Korean agents to hunt down 
the refugees and those that try to help them.
    We have seen the murder of Chinese citizens. We have seen 
the abduction of South Koreans. And what do they have in 
common? They have been involved in the North Korean refugee 
movement.
    So that's the point that we've reached right now with 
China. China has only two choices. It can continue to support 
the Kim dictatorship and this will ensure an escalating nuclear 
arms race in Asia, which could have horrific and devastating 
consequences, especially for the people of Korea.
    Or the other choice, which is for China to work with South 
Korea and the international community for peaceful unification 
under South Korea's democratic policies.
    And I just want to give one example. The gentleman 
mentioned THAAD. I think both of you mentioned the THAAD.
    Why did South Korea need THAAD? The only reason why South 
Korea needed THAAD was because of Kim Jong-un's nuclear 
threats, and this is an illustration of why China needs to 
decide whether it's going to continue to support this regime or 
work with South Korea and bring about the end of the Kim 
regime.
    Second point--this is very critical, too--we need to 
recognize what the people of North Korea have done internally 
and externally to change their circumstances and support the 
work of the defector-led organizations.
    They are our greatest allies for peaceful regime change. We 
all see the pictures of the goose-stepping soldiers and the 
fawning men and women in front of the Kim statues and we think 
it's a hopeless situation.
    But in this great darkness of North Korea, I see the light 
of the North Korean people because those are the people I have 
been working with for over 20 years.
    The reality is--we must think of this--the reality is that 
the people of North Korea have accomplished amazing things. 
It's the people externally who educated us, first of all, about 
the human rights tragedy--the crimes against humanity, the Kim 
dictatorships. But it's the people internally who are also 
educating themselves about the outside world.
    It's the women of North Korea who internally created the 
market system and the ones externally who are involved the most 
in the rescue movement.
    I know a North Korean woman who has rescued 7,000 North 
Koreans. I call her the Harriet Tubman of North Korea.
    North Korean defectors like Park Sang-hak of Fighters for 
Free North Korea regularly sends in information through balloon 
watches and he says, ``All I am doing is sending letters home 
about the truth.''
    The North Korean People's Liberation Front, men and women 
who served in the North Korean military, are sending in 
information and reaching out to the military in North Korea, 
citing the examples of what happened in Romania when the 
military sided with the people against the dictator.
    Every North Korea Freedom Week we have a very emotional 
ceremony with the North Korean People's Liberation Front 
members, men and women who served in the military, raised to 
hate Americans, think we caused the war.
    They go to the Korean War Memorial to lay a wreath and they 
pledge to honor the sacrifice that the Americans made for South 
Korea's freedom by dedicating their own lives to North Korea's 
freedom.
    As you heard from Ms. Han from Free North Korea Radio, a 
radio station founded by North Korean defector Kim Sung-min and 
staffed by defectors, it is broadcasting every day. It is the 
most popular single program broadcasting into North Korea.
    And one of the exciting things we do for Free North Korea 
Radio is create programs for them to communicate to the people 
of North Korea that we are not their enemy.
    One program includes messages from Members of Congress in 
which we simply asked members to send their hopes and dreams to 
the people of North Korea.
    The response from North Koreans to this program was 
absolutely amazing. During this year's North Korea Freedom 
Week, defectors brought portraits made of Members of Congress, 
including our distinguished chairman here today--Congressman 
Smith, and Congressman Royce, the chairman of the full 
committee.
    These portraits were smuggled out. They were made in 
Pyongyang by two brothers. It took them 3 months, and the 
portraits came out with the message, ``Tell the American 
politicians who deliver the messages my brother and I spent 3 
months making them late into the night. Please tell them there 
are some people in a dark place who still have hope.'' And you 
know how beautiful--they were the most beautiful artwork I've 
ever seen. They shimmered.
    The defectors tell us that if they had the resources to 
carry out their work of getting information in and out of North 
Korea, the regime could end in 3 years or less.
    Otherwise, it could survive for another 5 to 10 years.
    My third and final point, we must keep the human rights 
issues at the forefront, and Greg mentioned the importance of 
the human rights up front approach. We have to keep our 
concerns for the people of North Korea at the forefront, 
especially now--especially now with the escalating threats of 
Kim Jong-un.
    Otherwise, we play directly into Kim's propaganda that 
justifies his nuclear ambitions--that we are their enemy and 
the enemy of the people of North Korea.
    We must communicate to the people of North Korea that what 
the United States wants for them is to enjoy the same freedoms 
that South Korea Americans enjoy.
    The defectors keep repeating--repeating this to us. The 
truth will set them free. Support the work of the defectors. 
Help them get the information to North Korea.
    And I am presenting to you this book today called, ``The 
Accusation.'' This is the only dissident book from North Korea. 
It was smuggled out at great risk to those involved. It was 
smuggled out.
    It was published in English earlier this year. The author 
is still living in North Korea and he chose to use the 
pseudonym Bandi--B-A-N-D-I, Bandi--because Bandi is the Korean 
word for firefly. And he says he is the firefly shining a light 
out of the darkness of North Korea.
    He's just another example of the people of North Korea who 
are another light shining out of this darkness. He's just 
another example of another North Korean risking his life just 
to get this message from his homeland to you.
    Thank you very much.
    [The prepared statement of Ms. Scholte follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
                              ----------                              

    Mr. Smith. Ms. Scholte, thank you very much for your 
extraordinary leadership over the course of over two decades. 
It really has made a difference.
    I do have a number of questions but I'll try to keep them a 
little bit brief. If any of you would like to speak to the 
issue of the cult of personality, which I think is grossly 
underappreciated by the Pentagon and by many of the people 
within our own military.
    We know that when people believe that they are serving a 
god--in this case, a demigod, someone who is actually doing 
horrific things but claiming to be God--certainly, his 
grandfather did--that the sense of extremism and obsession 
almost knows no bounds.
    I know a lot of Americans, when they see documentary 
footage of people crying so profusely they think it's 
orchestrated, people tell me, including experts like 
yourselves, it's not.
    They really do--okay, they can gin some of that up but so 
much of it is from the earliest years inculcated into the minds 
and hearts.
    And I did ask our two previous witnesses, how do they break 
free of that, and the truth does set you free but it has to be 
applied over time which is why broadcasting and other means of 
communication are so important.
    But if you could speak to that whole issue of Juche. I've 
read one book about it by a Christian who said you've got to 
understand why they are so fanatical and why they will die in 
large numbers for Kim, whoever the Kim might be at that time, 
which we, again, under appreciate. The sense being able to 
reason effectively goes out the window.
    So I just ask you if you could speak to that first and then 
I'll get to some other questions.
    Mr. Scarlatoiu. Yes, Mr. Chairman.
    Indoctrination begins at a very early age in North Korea. 
It begins at the precognizant age. Babies in the cradle are 
taught to point fingers to the pictures of Kim Il-song and Kim 
Jong-il on the wall.
    Laws are on paper. North Korea has a constitution that even 
provides for freedom of religion and freedom of expression, 
labor legislation, a criminal code.
    But in practice, none of these laws are applied. North 
Koreans do not know the international obligations that North 
Korea has assumed by ratifying, for example, the International 
Covenant on Civil and Political Rights, the International 
Covenant on Economic, Social, and Cultural Rights or their own 
legislation.
    The only principles that govern each and every aspect of 
life in North Korea are the Ten Principles of Monolithic 
Ideology as evidenced in our recent research and publications 
by Robert Collins. Each and every North Korean has to 
participate in weekly ideological training sessions, self-
criticism sessions.
    This is very much part of life. During those long years 
that all men and many women spend in the military, 
indoctrination is taken to the next stage. One has, of course, 
to remember that the age of revolution in Budapest 1956, Prague 
1968, or Bucharest 1989 was late teens, early 20s, mid-20s.
    That's the age when each and every North Korean man is in a 
military uniform. By the time they are done the age of 
revolution has passed.
    Juche--of course, this is North Korea's self-reliance 
ideology. On the surface, it sounds very different from 
Marxism. Marxism basically preaches that ownership of the means 
of production is the main driver of history. Juche claims that 
the individual is the main driver of history.
    We had a senior fellow--resident senior fellow, very nice 
lady, born and raised in North Korea. She used to be a 
professor of Juche thought in North Korea. Now she's a 
university professor in South Korea.
    She would tell us every time we asked her about Juche, 
don't worry about Juche. The only--the sole purpose of Juche is 
to worship the leader, to solidify the leader's personality 
cult.
    Basically, the individual makes sense, individual life only 
makes sense for as long as it's lived as part of the 
commonwealth. Life makes sense only if it's lived for the sake 
of the Supreme Leader.
    As to information campaigns, the critical information 
campaigns that we launched into North Korea must surely be 
cognizant and fully knowledgeable of the different cognitive 
processes in North Korea.
    We must be fully cognizant that education is very 
different. World views are very different. The way North 
Koreans approach ideas is very different. So we are much better 
off if we have former North Koreans in charge of working on 
content and delivering this content perhaps in collaboration 
with other organizations. But they must definitely be involved 
in this process.
    Mr. King. Mr. Chairman, one of the things that I think we 
need to be careful about is that I am not sure the North 
Koreans are as indoctrinated as we would sometimes think.
    Barbara Demick, in her book, ``Nothing to Envy,'' talks 
about what life was like in North Korea. One of the very 
telling incidents she cites is about a particular family and 
how they dealt with the death of Kim Il-sung in 1994.
    The mother told the daughter, ``At school today you're 
going to have a memorial service for Kim Il-sung. You have to 
cry. You must have real tears. If you can't cry, spit in your 
hand and wipe it on your eyes so that everyone will know that 
you're crying.''
    They understand and they can see that. It's a society where 
to deviate becomes so difficult that people who may have 
different views or see things differently don't talk about it 
because of the nature of the society.
    I think this is not a place where you've got to convince 
people that other things are true. This is a place where people 
need to have an opportunity to do that.
    The key thing is making sure that we get information into 
North Korea that provides an alternative explanation of what's 
going on in the world and that, again, is the importance of 
news broadcasting and information dissemination.
    That is where we need to make sure that there is funding 
for Voice of America, Radio Free Asia, and for the programs 
that are being developed to do that.
    Mr. Smith. Ms. Scholte.
    Ms. Scholte. Well, first of all, I just want to tell you, I 
totally agree with you that this--the understanding of the 
Juche ideology is something that is completely under 
appreciated.
    The--one of the witnesses we had during North Korea Freedom 
Week this last year was from Pyongyang. She was part of the 
elites. She and her mom ran a restaurant, had the good life.
    She was--she said that when Kim Jong-il died, they thought 
they were all going to die, and I think maybe the Juche police 
system is probably more powerful in Pyongyang because it's the 
elites that are there and they are not--and they are more--
actually more isolated than people, like, for example, in the 
border regions.
    But I think it's a very important controlling system in the 
brain, with the brainwashing from the start. But it's really 
focused on the fact that the Kim family are God and Juche has 
really become the worship.
    Not the self-reliance that Hwang Jang-yop, who's the author 
of Juche, established but the worship of the Kim dictatorship.
    And Hwang Jang-yop interestingly pointed out when he 
defected, he said the way to break the Juche ideology is with 
the Holy Spirit. He actually became a Christian before he died, 
and he was really involved with Free North Korea Radio and Ms. 
Han cited the programs where they--these are programs that 
are--that are done to worship the regime, the songs--I am 
sorry, the songs that are meant.
    They changed the wordings of the songs. And Greg mentioned 
the importance of the messaging. That's exactly the kind of 
thing to change to address that belief system directly with 
truthful information, and this is one of the clever ways that 
the North Koreans are being able to do it.
    But I do think it's very important that we realize the cult 
of personality that's part of this Juche and the brainwashing 
that starts from the very moment they are children when they--
even math problems--``how many American GIs did you kill when 
you threw a grenade.''
    I mean, this starts at the very beginning. We need to be 
aware of that.
    And I'll finally say that the first defectors we brought 
over, one was an army captain. It was back in 1997, an army 
captain and a colonel, and they got up in front of the audience 
and said, ``None of you guys look like wolves and your noses 
are a lot smaller than I thought they were going to be'' 
because all Americans are supposed to have these long crooked 
noses. But it's just part of that brainwashing that we need to 
be aware of and that's why getting information is so important.
    Mr. Smith. Mr. Scarlatoiu, you underscored that up to 90 
percent of the North Korean women and girls in China fall prey 
to traffickers in China who sell them into sexual slavery.
    As you might know, I am the prime author of the Trafficking 
Victims Protection Act and I tried for years to get China 
designated as a Tier 3 country, an egregious violator, in part 
because of the exploding sex trafficking within mainland China 
but also in large part too because of so many North Koreans who 
were so horrifically abused.
    And, again, Ms. Scholte provided us with several witnesses 
over the course of several hearings who were themselves 
trafficked and told their stories again before this committee.
    This year, the Trump administration has designated China 
Tier 3, and in the narrative explaining that, great focus is 
put on this trafficking problem.
    They are not in freedom. They are in another kind of 
slavery that they are trying to escape from in North Korea.
    So my question would be, because we do have votes now so I 
am going to ask a number of questions so that we can finish 
before the voting is over, but if you could speak to that.
    We are at the sanctions part now. Tier 3 has been 
designated. At the time and place--anytime, any day now, the 
administration could announce a series of sanctions toward 
China.
    What would you recommend that we do? There is a lot on the 
plate that could be imposed and I think a designation without a 
sanction weakens the designation significantly.
    Secondly, on the issue of refoulement, which you spoke to 
in your testimony, we know that the periodic review is coming 
up in November 2018 under the Refugee Convention.
    NGOs can begin submitting in the spring. But it seems to 
me, this ought to be an engraved invitation for every one of us 
to make China--China's sending people back to death--they are 
taking poison to avoid it--and certainly to torture and 
mistreatment in the gulag system.
    This is an opportunity to begin even right now, and your 
thoughts on that. And, of course, there are some--under 
customary international law there are other obligations to 
which China is obliged to. Any thoughts along those lines?
    There was a report today of five refugee camps--you heard 
it earlier mentioned to our two previous witnesses. Is that 
because China thinks something is going to happen vis-a-vis a 
war? Or is this just another modality of control that they are 
seeking to impose?
    The ICC, unfortunately, has had a very checkered--two 
convictions in 14 years. The International Criminal Court has 
not been that robust. But it seems to me, as you have been 
saying, and as the U.N. Commission has found, or at least would 
lead us to believe, when you're complicit in these crimes 
you're complicit, and it would seem to me that not just North 
Korea but the prosecutors should be looking at China's 
complicity in this terrible death spiral that they are on now.
    So if you could speak to that. I have many other questions 
but we will run out of time, so please.
    Mr. Scarlatoiu. Mr. Chairman, certainly, there is ample 
evidence of the abuse that has affected North Korean women in 
China for more than two decades now.
    We have to take that leap--link China directly to the 
egregious human rights violations affecting North Koreans and 
in particular affecting North Korean refugees.
    Perhaps we need to take a hard look at certain areas, 
certain industries, certain areas of the economy that are more 
closely related to this issue of North Korean refugees in 
China--the lack of protection, the vulnerability of these 
refugees, China's refoulement of North Korean refugees--take a 
very hard look at areas that could be perhaps subjected to 
sanctions.
    In--as far as the refoulement issue is concerned, we often 
hear the question as to why China is so reluctant to provide 
protection to these North Korean refugees.
    I would take the liberty of sharing a thought with you. 
Perhaps China is afraid of a development similar to the 
European picnic of the summer of 1989 when Hungary opened its 
border to East Germans and this outflow of East Germans out of 
East Germany was one of the fundamental factors that ultimately 
brought about the fall of the Berlin Wall.
    Clearly, if there is one step that China can take to make a 
huge difference--a very significant difference, that would be 
to stop the forcible repatriation of North Korean refugees.
    The International Criminal Court--the referral of the Kim 
regime by the U.N. Security Council to the International 
Criminal Court was one of the fundamental recommendations made 
in the February 2014 report of the U.N. Commission of Inquiry. 
North Korea is not a party to the International Criminal Court.
    Of course, the problem with the Security Council is that 
the P5 members--the permanent members--have veto power and 
China is one of them. The Russian Federation is, of course, 
another one.
    So we face the prospect of a Chinese or Russian veto. Where 
we are right now is that for a fourth time yesterday, the North 
Korean human rights issue was placed on the agenda of the U.N. 
Security Council.
    Now, placing the issue on the agenda is a procedural matter 
that requires nine out of 15 votes of permanent and 
nonpermanent members. Once the issue is taken up, it becomes 
substantive and it becomes subject to a veto by one of the P5 
members.
    Another possibility that has been raised by international 
human rights NGOs is the creation of a special tribunal through 
the General Assembly.
    The tool kit of accountability is a complex one and 
pursuing the avenue of the International Criminal Court is just 
one of many avenues we can consider.
    Mr. King. You raised an interesting question about dealing 
with the Tier 3 sanctions on China. The difficulty of looking 
at sanctions as the key on these issues with the North Koreans 
is that, again, we are in a situation where we are trying to 
get the Chinese to solve the North Korean problem for us 
because we have such limited abilities to do it.
    This is our problem with sanctions on the nuclear weapons 
and we are going to be in trouble if we take that same route on 
human rights.
    There is a real link between sanctions on trafficking and 
repatriation. The reason why these women are trafficked is 
because they will be repatriated if they don't have some way to 
hide their presence there.
    And if we can move the Chinese in a direction where they 
allow the North Korean refugees to leave China, we don't have 
to worry about sanctions for trafficking because there won't be 
a trafficking problem. These women will leave. I think we need 
to sort of look at it in a way that will allow us to work with 
the Chinese and try to put some pressure on them to make some 
progress on repatriation rather than saying, you know, let's 
slap more sanctions on the Chinese.
    It's an issue that's not easy. It's an issue that's 
complicated. But it's an issue that's connected and we need to 
figure out how to do it.
    And I think that's the difficulty of dealing with China. We 
don't like what the Chinese do. We don't like their human 
rights record. We don't like their obstacles in dealing with 
the North Korean human rights issue or the North Korean nuclear 
issue.
    The argument has been we are probably better to try to work 
with the Chinese because they are suffering from the same 
problem and if we can work with them maybe we will have some 
progress.
    It is helpful to have the threat of sanctions because it's 
very clear that the sanctions on nuclear weapons are successful 
because the Chinese are beginning to enforce them. The Chinese 
are beginning to enforce them because we have imposed sanctions 
on the Chinese for not enforcing them.
    So we need to balance that process out. But I think we need 
to focus U.S. Government policy not just on the nuclear weapons 
issue but also on the human rights issue because that's the key 
to opening up North Korea.
    Mr. Smith. Before I go to Ms. Scholte, Andrew Natsios 
testified before our subcommittee a couple years ago and that 
was precisely his major point--that we have delinked human 
rights from the nuclear issue in the same way we did it with 
Iran. And when--if it's a sidebar issue or something that's 
done out in the hallway, it doesn't get done.
    And when we fail, as we have failed, unfortunately, on the 
nuclear side, what do you have to show for it? People's human 
rights have not been advanced----
    Mr. King. Exactly. That's why we need a special envoy for 
North Korea human rights to make sure that that is part of the 
discussion. Yes.
    Ms. Scholte. Well, for bringing up sanctions, I did want to 
say one thing about North Korea sanctions, which has been 
reported because you brought up the topic of sanctions, Free 
North Korea Radio and other entities have reported that the 
people of North Korea--one of the big worries that we all had 
with the sanctions against North Korea is not wanting to hurt 
the people of North Korea--that it be very carefully targeted 
at Kim Jong-un and the elites.
    And what we are hearing now is not only have the sanctions 
not hurt the people of North Korea but they are actually doing 
better, that the--because there is products that they can't 
export that they are having to dump on the North Koreans.
    So all these costs have gone down. So I wanted to talk 
about that. But on the sanctions regarding China, first of all, 
I want to start out by saying this.
    I think we have really failed the people of China and I 
hope that we don't continue to fail the people of North Korea.
    But I think we have really failed the people of China 
because we have turned back on the many horrific human rights 
violations that are happening against the people of China at 
all different levels, and this has been going on for decades 
for all our, I would say, economic greed.
    And I would cite two experts on this. Dr. Greg Autry, the 
professor who wrote the book ``Death by China'' and explores 
the intellectual property theft and the things that the 
Chinese--and I am talking very specifically about the regime in 
China--have done and profited at the expense of the American 
people, and also Dr. Yang Jianli, who I know you have--who has 
been just an amazing leader in the Chinese human rights 
movement. But we have not--we have betrayed people like them 
that are fighting for the human rights of the people of China 
as well.
    And so I think any kind of sanctions or pressure on the Xi 
Jinping regime is critically important. He is culpable. He is 
committing crimes against humanity.
    And on the refugee camps, that was the rumors we have been 
hearing off and on for decades. Why would we need refugee 
camps? Just let the UNHCR go in there and start letting these 
people go.
    And I remember one time when there was a planeload of North 
Koreans that the Chinese allowed leave. It was in the summer 
because I remember I was on vacation. It was probably, like, 10 
years ago.
    But they let a planeload go and RFA called me up, tracked 
me down on vacation and said, ``Suzanne, Suzanne, do you think 
the Chinese are changing their policy? They are letting a whole 
planeload of North Koreans back to South Korea.'' And I said, 
``Not unless the planes keep flying,'' and there were not any 
more flights.
    So I am not sure about these refugee camps. There is not a 
need for one. North Koreans are the only refugees in the world 
that have a place to go for immediate resettlement because they 
are citizens of South Korea under Article 2 of the South Korean 
constitution.
    They are unlike any refugees in the world. And I know we 
have a refugee crisis going on because of tensions in the 
Middle East and North Africa. But North Koreans don't--we have 
Hanawon, that's the refugee camp.
    Finally, on China fearing refugees, here's the thing. If 
China fears being overwhelmed by refugees if it showed some 
compassion, all it's doing is lifting off the pressure on Kim 
Jong-un that's causing all the tensions to begin with and 
relieving him of any reason to reform so that people don't want 
to leave.
    Talk to North Koreans. They don't want to leave their 
homeland. They love their homeland. They are only leaving 
because of the horrific human rights violations of a dictator 
there.
    So what China is doing is prolonging the dictatorship by 
forcing them back and being complicit in crimes against 
humanity.
    And I think that more and more Chinese are recognizing 
this. They are speaking out that the future is with South 
Korea. I believe that China fears having a strong unified 
democracy on its border and that's the reason why they are 
continuing to send the refugees back. They just don't want to 
see a Korea unified.
    I always point out that if the regime collapsed there is 
not going to be any refugee problem. The thing you're going to 
have to control is people trying to go there. And I always 
tease the pastors from--because the pastors, the Methodists and 
the Presbyterians, are going to be fighting to plant their 
churches there.
    Hyundai and everybody else is going to be going there to 
build plants. All the Korean Americans are going to be going 
home because that's their ancestral homeland--and the real fear 
is--what we will have to be concerned about is protecting the 
development in North Korea and protecting the North Korean 
people once that regime is gone from the flood of people coming 
in.
    Mr. Smith. Thank you.
    We have heard instances of U.N. agencies approving 
technology transfers to North Korea in violation of U.N. 
sanctions and the World Intellectual Property Organization--
WIPO--has had problems with that, and we have raised them.
    I actually had a hearing in February 2016 on that. We have 
written letters. It's come to very little outcome. Your 
thoughts on that?
    It seems to me that for sanctions to work it's not just the 
countries but it's also U.N. agencies that need to be in 
compliance. Your thoughts?
    Mr. Scarlatoiu. Chairman Smith, I believe you are referring 
to an agent called Tabun that the North Koreans were actually 
licensed to produce. It's one component needed in the 
production of chemical weapons, I believe.
    Our organization, the Committee for Human Rights in North 
Korea, has focused more on the humanitarian arm of the U.N. and 
one point that we have tried to make time and time again is 
that U.N. agencies involved in humanitarian operations inside 
North Korea should be fully cognizant of human rights concerns, 
of the U.N. Commission of Inquiry report, the recommendations 
of the U.N. Commission of Inquiry and apply a human rights up 
front approach to their work.
    And I will take the liberty of giving a very quick example. 
Last year, we documented Prison Camp Number 12 in Chongo-ri, 
North Hamgyong Province. In the aftermath of Typhoon Lionrock 
the U.N. was conducting a fact finding mission in the vicinity 
of the camp.
    We managed to acquire satellite images through the cloud 
cover proving that the camp had been affected by the flooding 
caused by Typhoon Lionrock.
    We urged U.N. agencies to include the most vulnerable 
segments of the population, especially prisoners, in the fact 
finding missions and humanitarian operations in North Korea.
    For example, the World Health Organization has a program 
called Health in Prisons applied throughout the developing 
world. Why not seek ways to apply some of these programs to 
North Korea?
    One positive aspect here, although action on the ground is 
lacking is that senior U.N. officials were very responsive, 
including, at the time, the Deputy Secretary General, and in 
his most recent report that U.N. Special Rapporteur on North 
Korean human rights, on human rights in the DPRK. Mr. Thomas 
Ojea Quintana did specifically mention the need to address the 
most vulnerable in North Korea including prisoners.
    Mr. King. Thank you for what you did, having a hearing to 
focus on the U.N. problem. U.N. agencies are like any big 
bureaucracy where you have people who aren't aware of what is 
going on in other places.
    They are, however, very attentive to what the U.S. Congress 
has to say and I think your efforts are extremely useful in 
dealing with these kind of problems with U.N. agencies not 
being aware of sanctions and so forth.
    Thank you.
    Ms. Scholte. Ditto.
    Mr. Smith. Ms. Scholte, you said it's worse now under Xi 
Jinping. Ms. Hee said it's worse under Kim Jong-un. It seems 
like it's been worsening since 2011.
    Dr. King, if I could go back to your testimony where you 
said it reached a high. Now it's gone down. It's less than 
1,500 last year. It could be even worse this year.
    How much worse can it get before the Security Council--
well, they may never do it because of the veto. But I am a 
great believer in hybrid courts.
    I've been pushing for 4 years that there be a special court 
for Syria and Iraq. Got a resolution passed. Had a series of 
hearings on it.
    We had the former prosecutor for Sierra Leone testify at 
two of those hearings and, of course, they put Charles Taylor 
behind bars for 50 years. So, it shows that hybrid courts get 
results.
    There are imperfections but they do get results. The ICC 
often doesn't. So I think your point was well taken, Mr. 
Scarlatiou.
    There are other alternatives and they have been put on the 
table. I think we should pursue that aggressively. We still may 
run into the Security Council problem. But even the effort 
might have some mitigating effect on the Chinese barbaric 
behavior and, of course, the parallel barbaric behavior by the 
North Korean Government. Your thoughts on that?
    Mr. King. The International Bar Association held a 
proceeding a couple weeks ago looking at what information there 
is about crimes against humanity being committed in North 
Korea.
    They concluded that there is sufficient solid evidence on 
10 of 11 crimes against humanity to hold individuals in North 
Korea responsible.
    I think we need to focus on this idea of accountability. I 
think we need to go as far as we can. I think it's useful to 
have the Security Council debating and discussing the human 
rights situation in North Korea.
    Even if we aren't going to get a vote out of the Security 
Council, it raises the issue to that level. It puts pressure on 
the North Koreans and we need to continue that effort. I think 
what you were trying to do with Syria is something that would 
be worth trying to do with North Korea.
    Ms. Scholte. I just--I met a young woman who escaped with 
her 14-year-old daughter. This was about 7 years ago. And she 
told me that when her 14-year-old daughter got repatriated--
they got--they got to China, they got arrested. Her 14-year-old 
daughter got--they got separated.
    The 14-year-old daughter got repatriated and beaten to 
death by a border guard. And when I heard that story, I was so 
horrified. How could any man beat a 14-year-old girl who was 
simply trying to have a better life?
    But at that point, I started pushing the South Korean 
Government to convene a tribunal because at that point the 
South Korean Human Rights Commission had already collected 532 
cases of these types of abuses where--and the people knew, gave 
testimonies.
    But when they put that report together they never released 
the names, and I think one thing was really encouraging that 
Ambassador King was involved with during President Obama's 
administration was starting to name names--naming names of the 
perpetrators of these crimes, which I think is so important.
    We are part of the U.N. Commission--I am sorry, the U.N. 
Commission of Inquiry that's pushing for the ICC referral.
    However, we can't wait, and even if he gets prosecuted at 
the ICC and the ICC determines he was committing crimes against 
humanity, well, he could still be dictator.
    It might not have any impact. So we have got to look at 
other ways and I've always believed that hybrid court, 
whatever, there has to be a procedure to start talking about 
these issues because I think we need to put people in the 
regime on notice.
    They've got to wake up every morning, the people that are 
keeping this regime going--they have to wake up every morning 
with two choices: Total devotion and loyalty to Kim Jong-un or 
having their brains splattered along with their family by anti-
aircraft weaponry. I mean, that's what they face every day.
    So how do you get that to stop? You've got to tell them, 
``You're going to be held accountable for your crimes.'' But at 
the same time, you've got to reach out to them through programs 
like Freedom North Korea, through the defectors, because there 
are defector elites who are reaching out to other elites and 
showing them that there is another alternative--there is 
another option.
    But I think proceeding on these kinds of legal courts is 
absolutely critical to put pressure on them to show them they 
are going to be held accountable.
    There has to be a way to stop that border guard from 
beating to death a 14-year-old girl when his name gets 
mentioned in a South Korean tribunal. But also Bob cited the 
International Bar Association. They did release their report 
this morning, which found that the crimes against humanity 
meaning that almost every single statute--there was just one 
they were lacking the evidence. But the evidence is there of 
the crime against humanity being committed by Kim.
    Mr. Smith. Let me ask you, and maybe it'll be the last 
question. You've been very generous with your time. How would 
you rate the effectiveness of the Human Rights Council toward 
China?
    I remember when it was called the Human Rights Commission. 
I traveled frequently to Geneva, would try to lobby people on 
particular issues including China. I actually went to a China 
press conference and asked some questions about human rights 
and they shut it down.
    They were so unwilling and so brittle when it comes to 
criticism. They just ended the press conference because they 
didn't want to answer serious questions about human rights.
    I've met with Prince Zeid, the high commissioner for human 
rights. I am deeply disappointed, and I would appreciate your 
thoughts, one way or the other. Maybe you think he's doing a 
good job.
    When it comes to Israel they are obsessed with holding 
Israel to account for things, for instance, settlements. 
Security Council Resolution 2334 makes it criminal--illegal for 
certain settlements, and Abbas is now petitioning the ICC to 
open up a case for prosecution.
    Are you kidding me? Then you have gross violations of human 
rights being committed every day with complicity by the Chinese 
but also with complicity with the Chinese. And, there is very 
little--a statement made here or there but it's never offensive 
in terms of trying to hold them accountable.
    I think it makes the credibility of the Human Rights 
Commission suspect. They cannot be politicized. We know that 
there are rogue nations who make a beeline to sit on the 
council in order to run interference to their own 
accountability being held and they work in tandem with each 
other to keep the rogue nations not focused upon.
    So if you could speak to that and particularly to Prince 
Zeid, because his black list is coming out very shortly of 
companies doing business with entities in what they falsely 
call occupied territory, and I say falsely because I believe 
it's false.
    But it's a very, very bad omen, I think, for the council to 
be so politicized and then look askance when it comes to China.
    Your thoughts?
    Mr. King. There is nothing more frustrating than trying to 
deal with the Human Rights Council. On the one hand, they have 
a very high-minded goal and objective. On the other hand, the 
realities of politics are constantly getting in the way.
    Israel is one of the most troubling of issues because the 
votes are in the wrong place and it becomes a very difficult 
problem.
    The one bright light with the Human Rights Council is the 
treatment of North Korea. North Korea has not sat on the Human 
Rights Council; it has never been elected a member of the 
council.
    North Korea has gone through the Universal Periodic Review 
process. They've been under some pressure because of that 
process and there have been some indications of improvement in 
noncontroversial areas like assistance for people with 
disabilities and that kind of thing.
    We have been able to get out of the Human Rights Council 
every year since 2004 a tough strong resolution that is 
critical of North Korea. We have been able to refer things to 
the General Assembly. We have been able to get tough strong 
resolutions.
    As far as North Korea Policy is concerned, the Human Rights 
Council is a good instrument. As far as Israel is concerned, 
it's not. [Laughter.]
    Mr. Smith. I mean, even today, December 11th, Prince Zeid 
has called for North Korea to be referred to the ICC.
    Mr. King. Yes.
    Mr. Smith. That is easy lift. That's not all that hard to 
say that.
    Mr. King. No. [Laughter.]
    Mr. Smith. But what about its accomplice, China? And I 
appreciate your thoughts, too.
    Mr. King. The issue with China is more complicated. China 
is a permanent member. It can veto anything of substance in the 
Security Council.
    Mr. Smith. But his recommendation--I mean, they can reject 
it----
    Mr. King. Yes.
    Mr. Smith [continuing]. But the credibility and gravitas 
that the high commissioner would bring to saying, ``Hey, you 
too, China.''
    Mr. King. Yes.
    Mr. Smith. ``We are not letting you off the hook. You are 
complicit in these horrific crimes.''
    Mr. King. Yes. It's a tough one. You're a politician. These 
countries are dealing with politics. We are making progress. We 
are not there yet.
    I think we need to continue the effort and we need to 
continue to criticize--the way you and other colleagues in 
Congress have done--to put pressure on the U.N. agencies for 
what they are not doing.
    But I think we should also be careful not to throw the baby 
out with the bath. Praise them for what they've done in areas 
like what they've done on North Korea. I think we have made 
real progress on that.
    Mr. Smith. Before we go to Greg, we ought to remind 
everyone and begin assembling lists. We just recently passed 
the Frank Wolf International Religious Freedom Act. I did 
sponsor it, and it calls for designated persons, people that we 
can hold to account.
    The Magnitsky Act and, certainly, the Global Magnitsky Act 
gives us an incredible tool on a vast array of human rights 
issues to say so and so, so and so, so and so, and begin honing 
in on the individuals who commit atrocities all over the world.
    We got the CPC designation, both China and North Korea, 
under the Religious Freedom Act. So sanctions can be levied 
there. And then, of course we know that, we have the 
Trafficking Victims Protection Act sanctions, Tier 3, where 
they can be levied there as well.
    So we have got all these tools. Let's use them.
    Please, Greg.
    Mr. Scarlatoiu. I fully agree with Ambassador King that 
there is serious tension between the lofty goals, ideals, and 
principles and standards that the U.N. Human Rights Council is 
supposed to uphold and the politicization of the council.
    It's highly politicized, of course, as a human rights NGO 
dealing with the U.N. and U.N. agencies. My colleagues and 
board members know that it's extraordinarily frustrating many 
times--most of the time to deal with U.N. agencies and yet, as 
Ambassador King said, if there is one success story of the U.N. 
Human Rights Council that was the establishment of the U.N. 
Commission of Inquiry through a resolution that didn't even go 
to a vote. It was passed by consensus by all 47 members of the 
Human Rights Council.
    So North Korea is, after all, the saving grace of the Human 
Rights Council, if I may say so, and we do hope to continue to 
see good action on North Korean human rights issues.
    Mr. Smith. Ms. Scholte.
    Ms. Scholte. Yes. I think we need tremendous reform at the 
U.N. I think it's, in some cases, it's a joke. The Human Rights 
Council--why can't we have a Human Rights Council where the 
membership is based on the countries observing the Universal 
Declaration of Human Rights--just a few of them?
    I mean, let's reestablish what the Universal Declaration of 
Human Rights stood for and let's have, you know, you can be on 
the Human Rights Council if your country, well, maybe--maybe at 
least 60 percent.
    How about just 60 percent, and I'll give you a D minus to 
be on the council. It's ridiculous what's happening. And while 
it's a bright light on North Korea, I am not sure that it's 
done anything. It's done nothing, actually, to improve the 
lives of the people of North Korea.
    The lives of the people of North Korea have not improved. 
We just know more about it. That's all that's happened. We just 
know how much they are suffering. The reality is it's because 
of the people of North Korea, not because of the dictatorship 
and certainly not because of anything that the U.N. has done. 
So it may be a good mouthpiece on North Korea but it's failing 
on the human rights and suffering of so many other people.
    Mr. Smith. You know, I thought in your prepared testimony 
you made an excellent point as to how we should honor the fact 
that the North Koreans themselves, whether they be in country 
or in South Korea or anywhere else, are really making the 
difference and we need to get behind them as never before in 
those efforts. Maybe you might want to elaborate on that.
    Ms. Scholte. Well, why don't I show them the portrait? They 
smuggled it back in. They smuggled it back into the hearing.
    This is an example, okay. Once again, this was made in 
Pyongyang. This is the response to messages broadcast on Free 
North Korea Radio, smuggled out at great risk. Two brothers 
took 3 months to make this.
    If they had been caught making this, they and their 
families would have been executed. So this is just a testament 
to the importance of reaching out to the people of North Korea.
    Mr. Smith. Thank you.
    And what Ms. Scholte is not saying is that there is a 
portrait of herself and one of Chairman Ed Royce as well.
    Is there anything else you would like to add before we 
conclude? And again, thank you for your insights. It gives us a 
lot of actionable things to do and I always appreciate that.
    Mr. King. Thank you for this hearing.
    Mr. Smith. Thank you, Ambassador King.
    Mr. Scarlatoiu. Thank you for the hearing. Thank you for 
your dedication and the inspiration that you provide to all of 
us.
    Mr. Smith. You inspire us. Believe me.
    And Ms. Scholte, thank you.
    Ms. Scholte. Thank you.
    Mr. Smith. The hearing is adjourned.
    [Whereupon, at 4:41 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
          

   Material submitted for the record by the Honorable Karen Bass, a 
        Representative in Congress from the State of California
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
